No. 19AIn the Supreme Court of the United States

Gail Rosier, PETITIONER
v.
Jeffrey Strobel, RESPONDENT

APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF ARIZONA

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE NINTH
CIRCUIT:
Pursuant to this Court's Rules 13.5 and 30.2, petitioner Gail Rosier prays for a 60-day
extension, or until October 25, 2019, to file her petition for,a writ of certiorari in this Court.

1.

Timeliness, Jurisdiction, and Opinion Below. On May 28, 2019,

the Arizona Supreme Court denied a Petition for Review of an Arizona Court of Appeals
decision that leaves the poor and incarcerated vulnerable to fraudulent foreign support orders and
without the right to legal representation and due process when facing incarceration.
The Arizona Court of Appeals' decision is attached as Exhibit A and the Arizona Supreme
Court's order denying review is attached as Exhibit B. A petition for writ of certiorari would be
due, pursuant to this Court's Rules 13.1, 13.3, and 30.1 on or before August 26, 2019. This

RECEIVED
AUG 2 0 2019
ICE OF THE CLERK
I OFF
SUPREME COURT,
U.S.

application is being filed ten days before that date. See Rule 30.2. The jurisdiction of this Court
is to be invoked under 28 U.S.C. ยง 1257.
2.

Reasons for Granting the Extension.

The Arizona Supreme Court did not serve the Order denying review upon me or my legal
counsel Mark W. Home Esq. My legal counsel Mr. Home awaiting notice of a decision, had NOT
been notified or served, and later discovered that review had been denied by the Arizona Supreme
Court by checking the court's website online. Mr. Home contacted the Arizona Supreme Court on
July 8, 2019 to request a copy of the Order at which point the Arizona Supreme Court sent it to him via
email. This mistake by the Arizona Supreme Court caused a lengthy delay in notice to us that the
Arizona Supreme Court had denied review. The Order denying review itself confirms that Mr. Home
was not served because the certificate of service on the Order lists all of the attorneys but it does not
list Mr. Home. An extension should be granted because we have been deprived of the 90 day time
frame due to the Arizona Supreme Court's failure to serve us with the Order denying review.

Aside from the Arizona Supreme Court's failure to serve its Order, an extension
should be granted because this is a complex case and a matter of first impression
involving the tension between the Uniform Interstate Family Support Act (UIFSA), a
state's laws and constitutional protections against debtor imprisonment and principals of
full faith and credit. Further, the following issues-that are worthy of review by this Court:
"What minimum protections are required to ensure due process for incarcerated and
indigent obligors who face child support proceedings under the UIFSA and the possibility
of contempt and imprisonment?", and as well, "is an order issued by a court that lacks

2

fundamental subject matter jurisdiction and obtained by fraud, enforceable under
UIFSA"?
3.

The need for an extension of time.

In addition, my counsel from the Arizona state court proceedings is not admitted
to the US Supreme Court and I need time to locate an attorney so admitted. An additional 60 days past the current deadline of August 26, 2019 is necessary.

WHEREFORE, I request that an Order be entered extending by 60 days the time
within which I may petition this Court for certiorari, to and including October 25, 2019.

Respectfully submitted,

August 16, 2019

/

lit

ALt...116

Ga Rosier
324 E Shea Blvd # 186
Pho ix, AZ 85028
nbarclay@icloud.com
602-999-9559

3

